APPENDIX A

AppOOl

1

In The
Court ofAppeals
Ninth District of Texas at Beaumont

NO. 09-17-00444-CV

KRISTIN D. WILKINSON, Appellant
V.
COMMISSION FOR LAWYER
DISCIPLINE, Appellee

On Appeal from the 284th District Court Montgomery
County, Texas Trial Cause No. 16-09-10238-CV

MEMORANDUM OPINION
Kristin D. Wilkinson appeals a final judgment of

2
App002

disbarment following a jury trial. See Tex. Rules
Disciplinary P. R. 3.15 (Feb. 26, 1991, Oct. 9, 1991),
renumbered eff. June 1, 2018.-1 In a pre-trial order
granting a motion for partial
1 Current version reprinted in Tex. Gov’t Code
Ann., tit. 2, subtit. G, app. B (West 2019). Throughout
this Opinion, we apply the Rules of Disciplinary
Procedure in effect on the date the disciplinary
proceeding commenced. See Tex. Rules Disciplinary P.
R. 1.04 (Feb. 26, 1991, Oct. 9, 1991), amended eff. Jan.
1, 2004.

summary judgment, the trial court ruled that as a
matter of law, Wilkinson violated a disciplinary
judgment when she drafted and executed a trust
document and powers of attorney while actively

3
App003

suspended from the practice of law. See Tex.
Disciplinary Rules Prof’l Conduct R. 8.04(a)(7) (Oct. 17,
1989), amended eff. Oct. 1, 1994, amended eff. May 1,
2018.- The jury found that Wilkinson engaged in
conduct

involving dishonesty, fraud,

deceit,

or

misrepresentation, and that Wilkinson committed a
criminal act that reflects adversely on her honesty,
trustworthiness or fitness as a lawyer in other respects.
See id. R. 8.04(a)(2), (3) (Oct. 17, 1989), amended eff.
Oct. 1, 1994, amended eff. May 1, 2018. In the final
judgment, the trial court disbarred Wilkinson as a
sanction for her professional misconduct. The three
issues presented by Wilkinson in her brief contend: (1)
the trial court erred by denying Wilkinson’s plea to the
jurisdiction; (2) there were defects in the charge and
legally and factually insufficient evidence to support the
jury’s verdict; and (3) the trial court erred by granting

4
App004

the Commission’s partial Summary judgment, in denying
Wilkinson’s motion for reconsideration, and in denying
her motion for summary judgment and her requests for
jury questions.

2 Current version reprinted in Tex. Gov’t Code Ann., tit.
2, subtit. G, app. A (West 2019) (Tex. State Bar R. art. X
§9).

5
App005

Appellant’s Plea to the
Jurisdiction
Wilkinson filed a post-judgment plea to the
jurisdiction in which she argued that neither the
Commission nor the lawyer who filed a grievance had
standing to make allegations against Wilkinson on
behalf of the beneficiary of the trust. Wilkinson further
argued that the trial court interfered with the
jurisdiction of the 190th District Court of Harris County
where the beneficiary of the trust filed an action against
Wilkinson. Additionally, Wilkinson challenged the
Commission’s jurisdiction over the acts of a trustee in
the administration of a trust when that trustee was not
admitted to practice law in Texas. The trial court
signed an order denying the plea to the jurisdiction on
November 13,2017.
We review a challenge to the trial court’s subject matter

6
App006

jurisdiction de novo. Tex. Dep’t of Parks & Wildlife v.
Miranda, 133 S.W.3d 217, 226 (Tex. 2004). Where a plea
to the jurisdiction challenges the pleadings, we
determine if the pleader has alleged facts that
affirmatively demonstrate the court’s jurisdiction to
hear the cause, construing the pleadings liberally in
favor of the plaintiff and considering the plaintiff’s
intent. Id. If a plea to the jurisdiction challenges the
existence of jurisdictional facts, we consider relevant
evidence submitted by the parties when necessary to
resolve the jurisdictional issues raised. Id. at 227. If the
relevant evidence is undisputed or fails to raise a fact
question on the jurisdictional issue, the
trial court rules on the plea to the jurisdiction as a
matter of law. Id. at 228. The fact finder will resolve any
fact question regardingthe jurisdictional issue. Id. at
227-28. A court’s subject-matter jurisdiction

7
App007

traditionally consists of the power, conferred by
constitutional or statutory provision, to decide the kind
of claim alleged in the plaintiff’s petition and to grant
relief. Sierra Club v. Tex. Nat. Res. Conservation
Comm’n, 26 S.W.3d 684, 687 (Tex. App.—Austin 2000)
affd on other grounds, 70 S.W.3d 809 (Tex. 2002). The
Texas Supreme Court regulates the practice of law in
Texas, exercises administrative control over the state
bar, and adopts rules for the discipline of state bar
members. In re State Bar of Texas, 113 S.W.3d 730,
732 (Tex. 2003); see also Tex. Gov’t Code Ann. § 81.011
(West 2013). Each attorney admitted to practice in
Texas is subject to the disciplinary jurisdiction of the
Supreme Court and the Commission. Tex. Gov’t Code
Ann. § 81.071 (West 2013). The Commission files the
disciplinary petition in a district court of the county of
the attorney’s principal place of practice. See Tex.
8
App008

Rules Disciplinary P. R. 3.03. (Feb. 26,1991, Oct. 9,
1991), amended eff. Oct. 1,1994, amended eff. Jan. 1,
2004, amended eff. Oct. 1, 2012. The county in which
the disciplinary action is filed is a matter of venue, not
jurisdiction, and can be waived. Acevedo v. Comm’n for
Lawyer Discipline, 131 S.W.3d 99,103-04 (Tex.
App.—San Antonio 2004, pet. denied). Furthermore, the
Commission acts not as or on behalf of a private litigant
to redress
a private wrong, but as an administrative agency under
the administrative control of the Supreme Court to hold
an attorney accountable for professional misconduct.
Id. at 104.
On September 1, 2016, the Supreme Court appointed a
judge to preside over the disciplinary action against
Wilkinson to be filed in a district court of Montgomery
County, Texas. The Commission filed the petition in a
9
App009

Montgomery County district court on September 2,
2016. See Tex. Rules Disciplinary P. R. 3.01. (Feb. 26,
1991, Oct. 9,1991), amended eff. Jan. 1, 2004, amended
eff. Oct. 1, 2012. In its petition, the Commission alleged
that Wilkinson was a licensed attorney and a member of
the State Bar of Texas. The Commission alleged: (1) in
2011, Wilkinson received a judgment of partially
probated suspension; (2) in 2013, the Texas Board of
Disciplinary Appeals issued a judgment revoking her
probation and ordered that Wilkinson be actively
suspended from the practice of law from July 26, 2013,
to July 25, 2015; (3) Wilkinson continued to practice law
while on active suspension when in August 2014, she
drafted and had executed an Irrevocable Living Trust
Agreement and General Power of Attorney, by which
the beneficiary transferred all of her assets to a trust
with Wilkinson designated as the sole trustee; (4) on

10
AppOlO

April 24, 2015, Wilkinson was removed as trustee in a
proceeding filed in Probate Court Number One of
Harris County; and (5) approximately $650,000 of
liquid assets

diminished to about $200,000 while Wilkinson was
trustee. The Commission’s petition invoked the trial
court’s subject matter jurisdiction to adjudicate the
disciplinary action against Wilkinson as an attorney
licensed in Texas in the exercise of the Supreme Court’s
administrative control over Texas attorneys.
Wilkinson filed a general denial without seeking a
transfer to another county. Wilkinson signed her
original answer as “The Wilkinson Law Firm, Kristin
Wilkinson, Attorney and Counselor at Law, by: /s/
Kristin Wilkinson” under the same State Bar Number
as alleged by the Commission in its petition. Although
she argued in the trial court and in her appeal that the
11
AppOll

\

actions for which she was disciplined were not taken in
her capacity as an attorney, when the Commission filed
the petition at the direction of the Supreme Court,
Wilkinson was an attorney licensed in Texas subject to
the disciplinary jurisdiction of the Supreme Court and
the Commission. See Tex. Gov’t Code Ann. § 81.071.
Likewise, as an attorney, Wilkinson was subject to the
Texas Rules of Disciplinary Procedure and the Texas
Disciplinary Rules of Professional Conduct. Id. §
81.072(d)

(West

Supp. 2018). Furthermore, the

Commission filed the disciplinary petition, as an
administrative agency of the Supreme Court, not on
behalf of the beneficiary of the trust or the person who
initiated a grievance. See Acevedo, 131 S.W.3d at 104.
As an exercise of the Supreme Court’s administrative
control to hold an attorney accountable for

12
App012

professional misconduct, the disciplinary action did not
interfere with the district court’s jurisdiction over the
litigation relating to the trust. See id:, see generally
Favaloro v. Comm’n for Lawyer Discipline, 13 S.W.3d
831, 836 (Tex. App.—Dallas 2000, no pet.) (the trial
court for the disciplinary proceeding did not interfere
with the jurisdiction of the court in which the lawyer
filed a suit against the state bar and the grievance
committee). We conclude the trial court had the power
to both try and enter judgment in the disciplinary
action. See Tex. Rules Disciplinary P. R. 3.03,
3.09 (Feb. 26,1991, Oct. 9,1991). We overrule issue one.
Charge Error and Sufficiency of the
Evidence
1. Charge Error
Wilkinson’s second issue complains of defects in
the jury charge and claims the evidence is legally and
13
App013

factually insufficient to sustain the jury’s verdict. The
trial court submitted two questions to the jury. Question
One asked, “Did Kristin Wilkinson engage in conduct
involving

dishonesty,

fraud,

deceit

or

mis­

representation?” The trial court instructed the jury
that, “ [t]he term ‘fraud’ denotes conduct having a
purpose to deceive and not merely negligent
misrepresentation or failure to apprise another of
relevant information.” The trial court instructed the jury
that
[t]he term “misrepresentation” may be
defined as one or both of the following;
1) The act or an instance of making a
false or misleading
assertion about something, usually with
the intent to deceive. The word denotes
not just written or spoken words but also
any other conduct that amounts to a false
assertion. 2) The assertion so made; an
incorrect, unfair, or false statement; an
assertion that does not accord with the
facts.
Question Two asked, “Did Kristin Wilkinson

14
App014

commit a criminal act that reflects adversely on her
honesty, trustworthiness or fitness as a lawyer in other
respects?” In connection with Question Two, the trial
court instructed the jury that
[i]t is a “criminal act” to intentionally,
knowingly, or recklessly misapply
property held as a fiduciary in a manner
that involves substantial risk of loss to the
owner of the property or to a person for
whose benefit the property is held.
A “fiduciary” includes a trustee, an
attorney in fact or agent appointed under
a durable power of attorney, or any other
person acting in a fiduciary capacity.
A person acts in a “fiduciary capacity”
when the business she transacts, or the
money or property which she handles, is
not hers or for her own benefit, but for the
benefit of another person with whom she
has a relationship implying and
necessitating great confidence and trust
and a high degree of good faith.
A person acts “intentionally” with respect
to the nature or result of her conduct
when it is her conscious objective or
desire to engage in the conduct or cause
the result.
15
App015

A person acts “knowingly” with respect to
the nature of or the circumstances
surrounding her conduct when she is
aware of the nature of her conduct or that
the circumstances exist or that her
conduct is reasonably certain to cause the
result.
A person acts “recklessly” with respect to
circumstances surrounding her conduct
or the result of her conduct when she is
aware of but
consciously disregards a substantial and
unjustifiable risk that the circumstances
exist or the result will occur. The risk
must be of such a nature and degree that
its disregard constitutes a gross deviation
from the standard of care that an
ordinary person would exercise under all
the circumstances as viewed from the
actor’s standpoint.
At Wilkinson’s request, the trial court instructed the jury
that
A fact may be established by direct
evidence or by circumstantial evidence or
both. A fact is established by direct
evidence when proved by documentary
evidence or by witnesses who saw the act
done or heard the words spoken. A fact is
established by circumstantial evidence
when it may be fairly and reasonably

16
App016

inferred from other facts proved.
A trustee must administer the trust solely
in the interest of the beneficiary.
The trustee must administer the trust as a
prudent person would, in light of the
purposes, terms, and other circumstances
of the trust.
A trustee must take all reasonable steps
to secure possession of, and maintain
control over, the trust property, and use
the level of care and skill a person of
ordinary prudence would use to preserve
trust property. This duty applies not only
to tangible property, but also to other
rights of the trust estate. For example, a
trustee must take reasonable actions to
collect claims due to the trust estate.
Although a trustee may deposit trust
funds in a bank or other financial
institution, the trustee must use
reasonable care in selecting the
institution and must designate all such
deposits as trust deposits. The trustee
may not subject the property to
unreasonable restrictions on Withdrawal
or leave it in non-interest bearing
accounts for unduly long periods of time.
Pending investment, distribution, or
payment of debts, a trustee is authorized
to deposit trust funds in a bank that is

17
App017

subject to supervision by state or federal
authorities.
A trustee shall invest and manage the
trust assets solely in the interest of the
beneficiaries.
A beneficiary by written demand may
request the trustee to deliver to each
beneficiary of the trust a written
statement of accounts covering all
transactions since the last accounting or
since the creation of the trust, whichever
is later. If the trustee fails or refuses to
deliver the statement on or before the
90th day after the date the trustee
receives the demand or after a longer
period ordered by a court, any beneficiary
of the trust may file suit to compel the
trustee to deliver the statement to all
beneficiaries of the trust. The court may
require the trustee to deliver a written
statement of account to all beneficiaries
on finding that the nature of the
beneficiary’s interest in the trust or the
effect of the administration of the trust on
the beneficiary’s interest is sufficient to
require an accounting by the trustee.
However, the trustee is not obligated or
required to account to the beneficiaries of
a trust more frequently than once every
12 months unless a more frequent
accounting is required by the court.

18
App018

Unless the terms of the trust provide
otherwise, the trustee is entitled to
reasonable compensation from the trust
for acting as trustee.
A trustee may discharge or reimburse
herself from trust principal or income or
partly from both for advances made for
the convenience, benefit, or protection of
the trust or its property or expenses
incurred while administering or
protecting the trust.
The trial court refused Wilkinson’s request to
include the following questions:
QUESTION
On the occasion in question was Kristin
Wilkinson employed as
an employee or contractor by Attorney Larry
Longer?
Answer:____________
If you answered “Yes” to the
previous question, then do not answer the
remaining questions. Otherwise, answer
the remaining questions.
QUESTION

19
App019

Did Kristin Wilkinson commit theft?
In answering this question, do not
consider any conduct of Kristin Wilkinson
that amounts to a duty of Attorney Larry
Longer in supervising Kristin Wilkinson
or conduct not required by the trust
instrument.
Answer “Yes” or “No.” Answer:
QUESTION___
Do you find by clear and convincing
evidence that Kristin Wilkinson committed
fraud?
In answering this question, do not
consider any conduct of Kristin Wilkinson
that amounts to a duty of Attorney Larry
Longer in supervising Kristin Wilkinson
or conduct not required by the trust
instrument.
Answer:
The trial court refused Wilkinson’s requests for
additional instructions regarding three subjects: (1)
instructions and definitions relating to professional
misconduct,

supervised lawyers and non-lawyer

assistants, and unauthorized practice of law; (2)

20
App020

instructions regarding trustees; and (3) instructions
and definitions about theft and misrepresentation.
In her appellate brief, Wilkinson suggests the trial court
improperly used broad-form submissions to the jury.
“When

a

single broad-form liability question

erroneously commingles valid and invalid liability
theories and the appellant’s objection is timely and
specific, the error is harmful when it cannot be
determined whether the improperly submitted theories
formed the sole basis for the jury’s finding.” Crown Life
Ins. Co. v. Casteel, 22 S.W.3d 378, 389 (Tex. 2000).
Likewise,

when over the appellant’s objection the trial court
submits a broad-form question combining factually
supported and factually unsupported theories of
recovery, the error will be harmful unless we are
reasonably certain that the jury was not significantly
21
App021

influenced by erroneously submitted questions. Romero
v. KPHConsol., Inc., 166 S.W.3d 212,226 (Tex. 2005).
The Commission argues Wilkinson failed to preserve
error on a complaint of broad-form submission.
Wilkinson did not argue to the trial court that the
charge commingled factually supported and factually
unsupported claims as to Question One, but she did
request a jury question on whether she committed
fraud. In her appellate brief, Wilkinson argues that
evidence of expenditures alone will not support a
finding

of

dishonesty,

fraud,

deceit

or

misrepresentation. She argues the Commission failed to
prove that her expenditures from the trust were
contrary to the trust agreement or unaccounted for by
Wilkinson. In the arguments in her brief, Wilkinson
does not differentiate the Commission’s fraud theory
from theories

involving dishonesty,

deceit,

or

22
App022

misrepresentation. Wilkinson has not shown that
Question One combines a theory that has support in the
evidence with a theory without evidentiary support. See
Romero, 166 S.W.3d at 226. Similarly, Wilkinson
requested that the trial court submit a question on
whether she committed theft, but in her appeal, she has
not shown that the trial court combined a factually
supported

theory with a factually unsupported theory in its
submission on Question Two. See id.
Wilkinson argues the trial court erred by failing
to include her requested instructions relating to the
duties of a trustee and management of the trust. The
trial court refused Wilkinson’s requests for instructions
regarding: (1) a trustee’s duty to administer a trust in
good faith; (2) a trustee’s duty to defend; (3) a
requirement of a trustee to give bond; (4) the rights of a
23
App023

successor trustee; (5) a trustee’s accountability to a
beneficiary; (6) a trustee’s duty to invest prudently; (7)
the prudent investor rule; (8) the standard of care for a
trustee; (9) diversification of investments; (10) a
trustee’s duty to make trust property productive; (11) a
trustee’s duties at inception of trusteeship; (12) a
trustee’s duty of impartiality; (13) investment costs; (14)
compliance with the prudent behavior rule; (15)
delegation of investment and management functions;
(16) a trustee’s actions taken prior to knowledge or
notice of facts; (17) relieving a trustee of liability; (18)
application of the Texas Trust Act; and (19) a trustee’s
right to exoneration or reimbursement for a tort
committed while properly engaged in a business activity
for the trust.
The Texas Rules of Civil Procedure require a trial court
to submit “such instructions and definitions as shall be

24
App024

proper to enable the jury to render a verdict.” Tex. R.
Civ. P. 277. Rule 277 “affords the trial court
considerable discretion in

deciding what instructions are necessary and proper in
submitting issues to the jury.” State Farm Lloyds v.
Nicolau, 951 S.W.2d 444, 451 (Tex. 1997). “When a trial
court refuses to submit a requested instruction, the
question on appeal is whether the request was
reasonably necessary to enable the jury to render a
proper verdict.” Tex. Workers’ Comp. Ins. Fund v.
Mandlbauer, 34 S.W.3d 909, 912 (Tex. 2000). The trial
court’s instructions to the jury described the trustee’s
duty to administer the trust solely in the interest of the
beneficiary, to administer the trust as a prudent person
would, to take reasonable steps to maintain control
over the trust property, to preserve it using ordinary
prudence, to use reasonable care in depositing trust

25
App025

funds, to invest and manage trust assets solely in the
interest of the beneficiary, and to account for
transactions. Furthermore, the trial court instructed
the jury on the trustee’s entitlement to reasonable
compensation and reimbursement for expenses
incurred while administering or protecting the trust.
The charge sufficiently apprised the jury of the duties of
a trustee and management of a trust without the
additional instructions requested by Wilkinson. We
conclude the trial court did not abuse its discretion. See
Nicolau, 951 S.W.2d at 451.
Wilkinson argues that the jury’s answer to Question
One is immaterial and should have been disregarded by
the trial court. The jury was asked if it found that
Wilkinson engaged in conduct involving dishonesty,
fraud, deceit or

26
App026

misrepresentation. Wilkinson contends the question
improperly required the jury to determine a question of
law and claims she submitted questions in substantially
correct form. The questions requested by Wilkinson
would have required the jury to disregard any Conduct
of hers that occurred while she was employed by an
attorney or that the attorney had a duty to supervise.
This is not an accurate statement of the law. A lawyer is
bound by the rules of professional conduct and is
responsible for her own conduct. Crampton v. Comm’n
for Lawyer Discipline, 545 S.W.3d 593,598 (Tex.
App.—El Paso 2016, pet. denied); see also Tex.
Disciplinary Rules Prof 1 Conduct R. 8.05(a) (Oct. 17,
1989), amended eff. Mar. 31,1995. (A lawyer is
“answerable for his or her conduct occurring in this
state[.]”)); Tex. Gov. Code Ann.

27
App027

§ 81.072(d). A lawyer is not relieved from compliance with
the Rules of Professional Conduct because the lawyer
acted under the supervision of an employer or other
person. See Tex. Disciplinary Rules Prof 1 Conduct R.
5.02 and cmt (Oct. 17,1989). Wilkinson argues the jury’s
answer to Question Two is also “immaterial” because
“ [instructing the jury on an unindicted criminal offense
to which the court cannot pronounce a proper judgment
violates due process guarantees.” Compulsory
disciplinary proceedings occur when a lawyer is
convicted of an intentional crime. In re Caballero, 272
S.W.3d 595, 597 (Tex. 2008). Compulsory discipline for
an intentional crime turns solely on the record of
conviction. In re Lock, 54 S.W.3d
305, 306-07 (Tex. 2001). Absent a conviction for an
intentional crime, the standard disciplinary proceedings
such as the proceedings brought against Wilkinson

28
App028

apply. See id. Attorney disciplinary proceedings are
civil matters, not criminal prosecutions. See Capps v.
State, 265 S.W.3d 44, 50 (Tex. App.—Houston [1st Dist.]
2008, pet. ref’d). Because the Commission did not bring
compulsory discipline proceedings against Wilkinson, it
was not required to prove that Wilkinson had been
convicted. See Tex. Rules Disciplinary P. R. 8.01 (Feb.
26, 1991, Oct. 9, 1991), amended eff. Oct. 1, 1994
(“Proceedings under this part are not exclusive in that
an attorney may be disciplined as a result of the
underlying facts as well as being disciplined upon the
conviction

or

probation

through

deferred

adjudication.”).
Wilkinson argues that by submitting a broad
form question that asked the jury if she “committed a
criminal act that reflects adversely on her honesty,
trustworthiness or fitness as a lawyer in other respects”

29
App029

and by refusing her requested definitions

of

“professional misconduct”, “intentional crime”, and
“serious crime”, the trial court did not require the
Commission to

prove that

she

committed

a

misapplication of fiduciary property. The trial court
instructed the jury that
[i]t is a “criminal act” to intentionally,
knowingly, or recklessly misapply
property held as a fiduciary in a manner
that involves substantial risk of loss to the
owner of the property or to a person for
whose benefit the property is held.
A “fiduciary” includes a trustee, an
attorney in fact or agent appointed under
a durable power of attorney, or any other
person acting in a fiduciary capacity.
A person acts in a “fiduciary capacity”
when the business she transacts, or the
money or property which she handles, is
not hers or for her own benefit, but for the
benefit of another person with whom she
has a relationship implying and
necessitating great confidence and trust
and a high degree of good faith.
The instructions tracked the language that
30
App030

describes the criminal offense of misapplication of
fiduciary property. See Tex. Penal Code Ann. § 32.45
(West Supp. 2018). Under the Rules of Disciplinary
Procedure, both “Intentional Crime” and “Serious
Crime” include misapplication of fiduciary property.
See Tex. Rules Disciplinary P. R. 1.06 (Feb. 26, 1991
Oct. 9, 1991), amended eff. Jan. 1, 2004,
amended eff. Sept. 1,2008, amended eff. Nov. 1,2013,
amended eff. June 1,2018. Wilkinson complains
that the instruction lacked a definition of
“misapply”
found in Penal Code section 32.45(a)(2), but she did not
request its inclusion in the charge. Because she did not
make the trial court aware of the complaint, Wilkinson
did not preserve error for appellate review. See State
Dep’t of Highways & Public Transp. v. Payne, 838
S.W.2d 235, 241 (Tex. 1992).
31
App031

“Controlling issues of fact must be submitted to
the jury and may be submitted to the jury by questions,
instructions, definitions, or through a combination of
them.”
McIntyre v. Comm’n for Lawyer Discipline, 247
S.W.3d 434, 443 (Tex. App.—
Dallas 2008, pet. denied). The questions presented to
the jury in the charge tracked the language found in the
subsections of the Rule of Professional Conduct that the
Commission alleged Wilkinson violated. See Tex.
Disciplinary Rules Prof’l Conduct
R. 8.04(a)(2) and (3). Because the questions and the
accompanying instructions and definitions submitted in
the jury charge fairly placed the disputed issues before
the jury, we conclude the trial court did not abuse its
discretion.
2. Sufficiency of the Evidence
Wilkinson challenged the legal and factual
32
App032

sufficiency of the evidence in her motion for new trial.
Evidence is legally insufficient to support
a jury finding when (1) the record
discloses a complete absence of evidence
of a vital fact; (2) the court is barred by
rules of law or of evidence from giving
weight to the only evidence offered to
prove a vital fact; (3) the evidence offered
to prove a vital fact is no more than a
mere scintilla; or (4) the evidence
establishes conclusively the opposite of a
vital fact.
Crosstex N. Tex. Pipeline, L.P. v. Gardiner, 505
S.W.3d 580, 613 (Tex. 2016) (citation omitted). As the
sole judges of the credibility of the witnesses and the
weight to give their testimony, the jurors may choose to
believe one witness and disbelieve another. City of
Keller v. Wilson, 168 S.W.3d 802, 819 (Tex. 2005).
“Jurors may disregard even uncontradicted and
unimpeached testimony from disinterested witnesses.”
Id. at 820. But “they are not free to believe testimony
that

33
App033

is conclusively negated by undisputed facts.” Id. In our
appellate review, we “credit
favorable evidence if reasonable jurors could, and
disregard contrary evidence unless reasonable jurors
could not.” Id. at 827. “The final test for legal
sufficiency must always be whether the evidence at trial
would enable reasonable and fair- minded people to
reach the verdict under review.” Id.
When challenging the factual sufficiency of the
evidence supporting an adverse finding on which the
appellant did not have the burden of proof at trial, the
appellant must demonstrate that there is insufficient
evidence to support the adverse finding. Croucher v.
Cruncher, 660 S.W.2d 55, 58 (Tex. 1983); Am.
Interstate Ins. Co. v. Hinson, 172 S.W.3d 108, 120
(Tex. App.—Beaumont 2005, pet. denied). When
reviewing a factual sufficiency challenge, we consider
and weigh all of the evidence in support of and contrary
34
App034

to the jury’s finding. Mar. Overseas Corp. v. Ellis, 971
S.W.2d 402, 406-07 (Tex. 1998). We only set aside a
finding if it “is so contrary to the overwhelming weight
of the evidence as to be clearly wrong and unjust.”
Dyson v. Olin Corp., 692 S.W.2d 456, 457 (Tex. 1985).
William McCulloch, Jr. testified that a Harris
County Probate Court appointed him as guardian ad
O

litem for J.G.- after Wilkinson, acting in her capacity as
trustee, filed a notice with the court asking for a
determination of J.G.’s competency.

3 In thi s opinion, we refer to the trust beneficiary by her
initials to protect her privacy.

35
App035

Wilkinson gave McCulloch a copy of the trust agreement
that was missing pages 29 through 33. The trust
agreement did not require Wilkinson to post a bond.
After McCulloch discovered that Wilkinson was
managing J.G.’s assets of approximately
$800,000, the probate court ordered Wilkinson to post a
$350,000 bond. After Wilkinson did not post the bond
and filed a notice of nonsuit of the guardianship
proceeding, on March 26, 2015, the probate court
removed Wilkinson as trustee and appointed Kyle
Frazier as successor interim trustee.
Kyle Frazier, an attorney, testified that J.G. and her
family had been his clients for many years. In December
2014, J.G. came to see him and hired him to represent
her because she was upset that Wilkinson had taken
control of her assets and was not giving her much
36
App036

money. On February 4, 2015, Frazier drafted and filed
an executed revocation of a power of attorney J.G. had
given Wilkinson and wrote a demand letter on J.G.’s
behalf asking Wilkinson to resign as trustee and
reasserting J.G.’s previous request for an accounting of
the trust’s assets and all of Wilkinson’s actions from
August 20, 2014. Wilkinson responded by notifying the
Harris County Probate Court that J.G. may not have the
capacity to

retain Frazier and requesting a

determination of J.G.’s need for a court-appointed ad
litem. Wilkinson wrote to Frazier and advised him that
the revocation had no effect on her powers of trustee
and that she refused to turn over assets or information.
Frazier stated that when he took over as
successor trustee, approximately
$200,000 remained in J.G.’s IRA account, Wilkinson
turned over a cashier’s check in the amount of $8,000,
and there was approximately $20,000 in cash on hand.
37
App037

In September 2014, $30,000 was deposited in a trust
account. By March 2015, Wilkinson had removed all but
approximately $4,300 from that same account. A second
trust account had a balance of approximately $83,500 in
October 2014, and approximately $500 remained when
Wilkinson was removed as trustee. J.G.’s IRA account
had a balance of approximately $375,000 in October
2014, and approximately $252,000 in March 2015. The
withdrawals from the IRA account incurred an early
withdrawal tax penalty. According to Frazier, four early
withdrawals between December and April totaled
$196,000.
According to Frazier, while Wilkinson served as
trustee from late August 2014 through April 2015,
approximately $190,000 was disbursed from checking
accounts held for the benefit of J.G. In at least ten
instances, there were insufficient funds in the account

38
App038

to cover a check. Wilkinson wrote checks to herself: (1)
on August 29, 2014, $3,500 for “trust expenses
reimbursement, and fees”; (2) on October 24, 2014,
$5,000 for “one quarter fees”; (3) on January 3, 2015,
$7,000 for
“trustee”; (4) on January 27, 2015, $5,600 for “fees” (5)
on February 11, 2015,
$20,692 for “trust services”; (6) on February 28, 2015,
$5,600 for “fees”; (7) on

March 13, 2015, $2,225 for “trust services fees”; (8) on
March 26, 2015, $15,000 for “fees”; and (9) on April 5,
2015, $25,000 for “trust services”. According to Frazier,
$89,617 is not the type of fee a trustee receives for less
than eight months of work. Frazier stated that he
generally charges about $10,000 per year for trustee
services. According to Frazier, most banks base their
trustee services on the value of the assets and the type
of assets, charging a minimum fee of perhaps one

39
App039

percent. At the time of the trial, Frazier had been
serving as the successor trustee for approximately two
years and three months.
In addition to the checks Wilkinson wrote to
herself, Frazier identified a number of checks payable
to cash: (1) on October 16, 2014, $1,500 for “fees”; (2) on
December 7, 2014, $1,700 for “fees”; (3) on December
20, 2014, $1,000 for
“fees”; (4) on December 29, 2014, $1,500 for “fees”; (5)
on January 6, 2015, $2,500 for “fees”; and (6) on
January 30, 2015, $3,500 for “fees expense”. Frazier
stated that Wilkinson gave him no records to account
for her having expended $11,700 in cash. In addition to
the checks payable to Wilkinson or to cash, Wilkinson
made several cash withdrawals: (1) on October 1, 2014,
$1,000; (2) on October 10, 2014,
$2,500; and (3) on October 18, 2014 $2,000. According to
40
\

App040

Frazier, Wilkinson never explained the withdrawals to
him.
Kelly Kearney, a financial advisor with Morgan
Stanley, testified that they received a letter of
instruction dated September 9, 2014, in which J.G. and
Wilkinson requested that all of J.G.’s assets, which
included one taxable account and several individual
retirement accounts, be transferred into an irrevocable
trust account with Wilkinson as trustee. She consulted
the compliance officer and a decision was made not to
follow the instructions in the letter. Another firm
initiated a transfer of the accounts with a value of
approximately $657,000 out of Morgan Stanley.
Wilkinson called eight witnesses in her defense.
Ginevra Hess, a technician at a 24-hour emergency and
critical care veterinary facility, testified that she
personally boarded one of J.G.’s dogs for $50 per day
41
App041

and arranged for a professional trainer to work with the
dog. Hess eventually adopted the dog to a friend. The
dog arrived at the veterinary facility about January 10,
2015, and the dog was adopted sometime in May 2015.
Wilkinson paid her using trust funds.
Terry Lindsey, a substandard building specialist for the
City of Baytown, testified that in June 2014, he
inspected and photographed J.G.’s premises. Copies of
the photographs, which showed the poor condition of the
premises, were admitted in the trial.

Yolanda Hernandez, a real estate agent, testified
that she assisted Wilkinson’s attempt to find a home
with a homeowners’ association that would accept
J.G.’s three pets. She located a home, but J.G. did not
lease it.
Brent Haynes, an assistant district attorney of
the Galveston County District Attorney’s Office, testified

42
App042

that an attorney named Larry Longer represented J.G.
in an animal cruelty case. J.G.’s case resulted in the
impoundment and forfeiture of 28 animals. He recalled
seeing Wilkinson at a pretrial conference where Larry
Longer appeared for J.G. and requested a 90-day
continuance so J.G. could enter a 90-day treatment
program. He recalled that Longer introduced Wilkinson
as the trustee and that she presented the case to the
court. Haynes and Longer worked out a plea agreement
in principle; Haynes sent Longer a proposed agreed
judgment but did not hear from Longer. Another
attorney assumed J.G.’s defense and settled both the
criminal case and the civil forfeiture of the animals. On
October 27, 2014, J.G. agreed to pay approximately
$45,000 for the animals’ expenses and forfeited 25 of the
28 animals.
Gerard Duhon, an engineer who works with
43
App043

residential foundations, testified that in February 2015,
his company prepared a report for a home that
belonged to
J.G. The slab had not failed but he recommended a repair
to improve its resale value.
He charged $250 and did not perform any other work on
the property. Wilkinson paid the invoice with trust
account funds.
Amy Garrou, a veterinarian, testified that her
practice took over the care of three animals for J.G.
Wilkinson and J.G. were both present when Dr. Garrou
examined the animals.
Michael Walker, the owner of a landscaping
business, removed trees from J.G.’s Baytown veterinary
clinic and mowed the lawn biweekly. In a separate
project in Pasadena that took two to two-and-one half
weeks, he removed an oak tree that had fallen on a
covered patio deck, ground tree stumps, and removed

44
App044

i

debris. Walker estimated that he was paid $14,000.
Wilkinson paid him using trust account funds.
Stephen Desselle testified that Wilkinson hired
his former company, College Hunks Hauling, to haul
away junk from J.G.’s homes and clinic. Desselle
charged approximately $11,000 in January 2015, and he
was paid out of the trust account.
In the charge to the jury, the trial court asked the jury
“Did Kristin Wilkinson engage in conduct involving
dishonesty, fraud, deceit or misrepresentation?” The
trial court instructed the jury that fraud denotes
conduct having a purpose to deceive and not merely
negligent misrepresentation or failure to apprise
another of relevant information. The trial court
instructed the jury that “Misrepresentation” required
making a false or misleading assertion about
something, usually with the intent to

45
App045

deceive, that does not accord with the facts. The jury
found that Wilkinson engaged in conduct involving
dishonesty, fraud, deceit or misrepresentation.
The trial court asked the jury, “Did Kristin
Wilkinson commit a criminal act that reflects adversely
on her honesty, trustworthiness or fitness as a lawyer in
other respects?” The trial court instructed the jury that
(1) it is a “criminal act” to intentionally, knowingly, or
recklessly misapply property held as a fiduciary in a
manner that involves substantial risk of loss to the
owner of the property or to a person for whose benefit
the property is held, (2) a “fiduciary” includes a trustee,
an attorney in fact or agent appointed under a durable
power of attorney, or any other person acting in a
fiduciary capacity, and (3) a person acts in a “fiduciary
capacity” when the business she transacts, or the
money or property which she handles, is not hers or for

46
App046

her own benefit, but for the benefit of another person
with, whom she has a relationship implying and
necessitating great confidence and trust and a high
degree of good faith. The jury found Wilkinson
committed a criminal act that reflects adversely on her
honesty, trustworthiness or fitness as a lawyer in other
respects.
In her appeal, Wilkinson argues that without testimony
from Wilkinson or J.G., the Commission presented no
probative evidence of breach of the trust agreement,
produced no witness with personal knowledge
concerning the purpose of the expenditures from the
trust, and failed to prove that the checks reflecting

“fees” were made contrary to an agreement or were
improper. Wilkinson argues there is no probative value
to evidence of expenditure alone, without showing
knowledge of factual substantiation or explanation. She

47
App047

claims references to “fees” on the checks is not
determinative because a notation on a check does not
prove its application. She claims the Commission had
no evidence of her intent to defraud or of a deception
practiced on a person to whom a duty is owed. She
argues no inference that her conduct was wrongful can
be reasonably drawn from the evidence.
The factual dispute before the jury was not
whether Wilkinson breached the trust agreement but
whether she engaged in professional misconduct by
misapplying fiduciary property or by engaging in
dishonest or fraudulent conduct. Wilkinson does not
dispute that she was a fiduciary or that she was acting in
a fiduciary capacity when she conducted financial
transactions out of the trust account. Wilkinson took
funds for herself that she held as a fiduciary without
invoicing or otherwise justifying the expenditure. As a
48
App048

lawyer and as the successor trustee, Frazier had both
expertise and personal knowledge of a reasonable fee
for trustee services for J.G.’s living trust and the jury
could accept as credible Frazier’s assertion that the
amount of money Wilkinson took for herself was far
more than could be justified.
The jury could discern from her witnesses’ testimony
and the records of her financial transactions what
actions Wilkinson had engaged in for the benefit of J.G.
For

instance,

Wilkinson

arranged

for

legal

representation, medical care, animal care, debris
removal, and paid property taxes. From the financial
records and witness testimony, the jury could find that
the funds Wilkinson took for her own benefit vastly
outweighed the value of the efforts she expended in her
role as trustee.
The evidence at trial would enable reasonable

49
App049

and fair-minded people to reach the verdict under
review. Wilson, 168 S.W.3d at 827. Furthermore, the
evidence is not so contrary to the overwhelming weight
of the evidence as to be clearly wrong and unjust.
Dyson, 692 S.W.2d at 457. We hold the evidence is
legally and factually sufficient. Accordingly, we overrule
issue two.
Summary Judgment
In her third and final issue, Wilkinson challenges the
trial court’s summary judgment rulings. In our de novo
review of a summary judgment, “[w]e review the
evidence presented in the motion and response in the
light most favorable to the party against whom the
summary judgment was rendered, crediting evidence
favorable to that party if reasonable jurors could, and
disregarding contrary evidence unless reasonable
jurors could not.” Mann Frankfort Stein & Lipp
50
App050

Advisors, Inc. v. Fielding, 289 S.W.3d 844, 848 (Tex.
2009). A party moving for traditional summary judgment
has the burden to prove that there is no genuine issue
of material fact and that it is entitled to judgment as a
matter of law. Tex. R. Civ. P. 166a(c). “If the party
opposing a summary judgment relies on an affirmative
defense, [she] must come forward with summary
judgment evidence sufficient to raise an issue of fact on
each element of the defense to avoid summary
judgment.” Brownlee v. Brownlee, 665 S.W.2d 111, 112
(Tex. 1984). In a no-evidence motion for summary
judgment, the movant contends that no evidence
supports one or more essential elements of a claim for
which the nonmovant would bear the burden of proof at
trial. Tex. R. Civ. P. 166a(i). “To defeat a no-evidence
motion, the non-movant must produce evidence raising
a genuine issue of material fact as to the challenged
51
App051

elements.” First United Pentecostal Church of
Beaumont v. Parker, 514 S.W.3d 214, 220 (Tex. 2017).
“When both sides move for summary judgment and the
trial court grants one motion and denies the other, we
review the summary judgment evidence presented by
both sides, determine all questions presented, and
render the judgment the trial court should have
rendered.” SeaBright Ins. Co. v. Lopez, 465 S.W.3d
637, 641-42 (Tex. 2015).
The trial court ruled that that the summary judgment
evidence conclusively established that by drafting the
trust agreement and power of attorney, Wilkinson
practiced law while a judgment of the Board of
Disciplinary Appeals prohibited her from practicing law
in Texas. The trial court ruled that Wilkinson failed to
raise a fact issue on her affirmative defenses that when
she drafted the trust agreement and
52
App052

the power of attorney she was acting as a paralegal
under the supervision of Larry Longer, or that she has a
good faith belief that the suspension of her law license
was invalid. The trial court granted the Commission’s
motion for partial summary judgment concluding that
Wilkinson committed an act of professional misconduct
by violating a disciplinary judgment when she practiced
law while on active suspension.
The trial court denied Wilkinson’s motion for summary
judgment on the Commission’s claims that she engaged
in professional misconduct by Rule 8.04(a)(2), (3) and
(7) of the Texas Disciplinary Rules of Professional
Conduct. First, the trial court denied Wilkinson’s
motion for summary judgment on the Commission’s
allegation that she violated Rule 8.04(a)(7) because the
trial court granted the Commission’s motion for partial
53
App053

summary judgment on grounds that the summary
judgment evidence conclusively established that
Wilkinson practiced law while a judgment of the Board
of Disciplinary Appeals prohibited her from practicing
law in Texas. Second, the trial court denied Wilkinson’s
motion for summary judgment on the Commission’s
allegation that Wilkinson violated Rule 8.04(a)(2)
which prohibits a lawyer from committing a serious
crime or any other criminal act that reflects adversely
on the lawyer’s honesty, trustworthiness or fitness as a
lawyer in other respects, because Wilkinson failed to
identify which element of

the Commission’s claim lacked evidentiary support. The
trial court further found that the summary judgment
evidence raised a fact issue on whether Wilkinson
committed the criminal offense of misapplication of
fiduciary property. Third, the trial court denied

54
App054

Wilkinson’s motion for summary judgment on the
Commission’s allegation that Wilkinson violated Rule
8.04(a)(3), which prohibits a lawyer from engaging in
conduct

involving dishonesty,

fraud,

deceit or

misrepresentation, because Wilkinson failed to identify
which element of the claim had no evidence.
Additionally, the trial court ruled that Wilkinson was
not entitled to summary judgment because Wilkinson
failed to establish that she is entitled to judgment as a
matter of law. The trial court

submitted the

Commission’s allegations that Wilkinson violated Rule
8.04(a)(2) and (3) to the jury, which made an affirmative
finding as to those allegations.
The trial court incorporated its partial summary
judgment into the final judgment. In its final judgment,
the trial court found that Wilkinson committed
professional misconduct and that she violated Rule
55
App055

8.04(a)(2), (3) and (7) of the Texas Disciplinary Rules of
Professional Conduct and that the imposed disbarment
is an appropriate sanction for Wilkinson’s professional
misconduct.
In her appellate brief, Wilkinson argues that
working as a paralegal is not the practice of law, and
she claims the summary judgment record contains
evidence that she had a good faith belief that there was
no valid prohibition on her practicing law. She argues
the billing records in the summary judgment record fail
to conclusively establish that she practiced law and
raise a fact issue that she was performing work as a
paralegal for Larry Longer when she drafted the trust
agreement and the power of attorney.
The summary judgment evidence includes
Wilkinson’s invoice to J.G. for fees incurred from August
3, 2014 through August 19, 2014, before execution of the

56
App056

trust agreement and power of attorney vested
Wilkinson with powers as a trustee and attorney-infact. Wilkinson charged J.G. $350 per hour to “review
and analyze trust and living estate issues and recent
opinions relating to preferred selection of form of trust
for JGB”, “Begin drafting of Trust Agreement”, “Draft
and revise Trust Agreement”, “Final drafting of trust
before transmittal to client for review”, “Office
conference with [J.G.] regarding trust revisions and
disposition of her property to trust”, and “Draft and
revise final version of trust.” Nothing in the record
implies that Longer supervised Wilkinson’s drafting of
the trust agreement and power of attorney.
Wilkinson asserted that she worked as a paralegal for
an attorney while she was suspended from the practice
of law—in her motion for summary judgment, in her
response to the Commission’s motion for summary

57
App057

judgment, in her

supplemental answer, in her motion for leave to submit
additional

evidence,

and

in

her

motion

to

reconsider—but she failed to raise a fact issue as to any
of these assertions because she failed to file a summary
judgment affidavit. See Laidlaw Waste Systems
(Dallas), Inc. v. City of Wilmer, 904 S.W.2d 656,
660-661 (Tex. 1995). Wilkinson complains that the trial
court shifted the burden of proof from the Commission
to Wilkinson, but in summary judgment procedure, if
the party opposing a summary judgment relies on an
affirmative defense, she must come forward with
summary judgment evidence sufficient to raise an issue
of fact on each element of the defense to avoid summary
judgment. See Brownlee, 665 S.W.2d at 112.
In her appellate brief, to support her argument that a
question of fact exists regarding whether she was

58
App058

practicing law when she drafted the trust documents or
was merely performing the activities of a paralegal
under Longer’s supervision, Wilkinson relies on two
documents that she offered, and the trial court admitted
in the later sanctions hearing. Assuming without
deciding that we may consider these documents, at
least to the extent that they address her argument that
the trial court erred by denying her motion for new
trial, we conclude that the documents support rather
than

undermine

the

trial

court’s judgment.

Respondent’s Exhibit Number 20 is an invoice from
“Kristin Wilkinson, On Behalf of Larry G. Longer, P C.”
that

reflects work Wilkinson performed between July 25,
2014, and August 11, 2014, on the appeal of the justice
court order of dispossession of J.G.’s animals. Most of
the work was billed at a rate of $54.53 per hour. No

59
App059

mention of Wilkinson’s work on the trust agreement or
the power of attorney appears anywhere in the
document. Longer paid Wilkinson for the work reflected
in the invoice. Respondent’s Exhibit Number 26
contains Longer’s accounting of his work for J.G. and
shows that Longer mailed Wilkinson a refund-ofretainer check payable to J.G on September 8, 2014. No
time for drafting, supervising, or reviewing the drafting,
preparation and execution of the trust agreement and
power of attorney appears anywhere on Longer’s
description of his efforts on J.G.’s behalf, nor did he
include in his accounting any of the work Wilkinson
invoiced to J.G. on August 20, 2014. We conclude the
Commission conclusively established that Wilkinson
practiced law while a judgment of the Board of
Disciplinary Appeals prohibited her from practicing law
in Texas.

60
App060

In her appeal, Wilkinson argues that the trial
court erred by refusing to grant leave to file Wilkinson’s
supplemental motion for summary judgment and her
motion to submit additional summary judgment
evidence.- ^ilkinson filed her

4 The trial court granted Wilkinson’s motion for leave to
supplement her answer with her affirmative defenses.

61
App061

supplemental motion for summary judgment on April 11
2017, less than seven days before the submission date.
The trial court stated that leave was denied because the
motion was not timely filed, and Wilkinson provided no
legitimate reason for leave of court. See Tex. R. Civ. P.
166a(c) (“Except on leave of court, the adverse party,
not later than seven days prior to the day of hearing
may file and serve opposing affidavits or other written
response.”). Wilkinson filed her motion to submit
additional summary judgment evidence on April 20,
2017, after the trial court held a hearing on the motions
for summary judgment. The trial court denied the
motion because Wilkinson failed to provide a legitimate
reason for granting leave for late filing.
“We review a trial court’s ruling on a motion for
leave to file a late summary- judgment response for an

62
App062

abuse

of discretion.” Carpenter v.

Cimarron

Hydrocarbons Corp., 98 S.W.3d 682, 686 (Tex. 2002).
[A] motion for leave to file a late
summary-judgment response should be
granted when a litigant establishes good
cause for failing to timely respond by
showing that (1) the failure to respond
was not intentional or the result of
conscious indifference, but the result of
accident or mistake, and (2) allowing the
late response will occasion no undue
delay or otherwise injure the party
seeking summary judgment.
Id. at 688. Here, Wilkinson presented an affirmative
defense for the first time in an amended pleading filed
on April 11, 2017, but she failed to offer any
explanation
why she filed her amended pleading and supplemental
motion less than seven days

63
App063

before the date scheduled for the summary judgment
hearing. Wilkinson presents no substantive argument
and authorities to support her argument that the trial
court abused its discretion. We conclude the trial court
acted within its discretion when it denied leave to
supplement the motion for summary judgment and
summary judgment evidence.
Wilkinson argues in her appellate brief that she
conclusively established her entitlement to summary
judgment on the Commission’s professional
misconduct allegations. Wilkinson claims her failure to
account to J.G. was the only claim of misconduct
alleged by the Commission. Wilkinson argues Frazier’s
demand that she turn over J.G.’s assets to him
personally, together with her response informing
Frazier that she had no obligation to comply with his
64
App064

demand, establish that she was entitled to summary
judgment on the Commission’s allegations of
professional misconduct because Frazier lacked
authority to demand information about the trust. The
Commission alleged that Wilkinson’s actions in
drafting the trust agreement and power of attorney
violated Rule 8.04(a)(7) and her actions that resulted
in a $450,000 reduction in value of the liquid assets of
the trust violated Rule 8.04(a)(2) and (3). The summary
judgment record shows that the trust agreement
required Wilkinson to keep accurate and complete
records of trust transactions and provided that the
beneficiary or the beneficiary’s representative

could inspect the records at any reasonable time.
Wilkinson’s refusal to provide information to Frazier
does not establish that she neither committed a crime
nor engaged in dishonest conduct in her handling of the
65
App065

trust’s assets. We conclude that Wilkinson has not
shown that the trial court abused its discretion by
denying her motion for summary judgment. We overrule
issue three and affirm the trial court’s judgment.
AFFIRMED.
Justice
Submitted on March 6, 2019
Opinion Delivered July 25, 2019
Before McKeithen, C.J., Kreger and Johnson, JJ.

66
App066

L90ddy

L9 .

a xiaNaddv

CAUSE NO. 16-09-10238
COMMISSION FOR LA WYER DISCIPLINE
Petitioner,
§
§
§

IN THE DISTRICT COURT OF
vs. § MONTGOMERY COUNTY, TEXAS
KRISTIN D. WILKINSON, §
Respondent. § 2841h JUDICIAL DISTRICT
JUDGMENT OF DISBARMENT
Parties and Appearance
On July 17, 2017, came to be heard the above-styled and
numbered cause. Petitioner, the COMMISSION FOR LA
WYER DISCIPLINE, appeared by and through its attorney
of record, Shannon Breaux Sauceda, Assistant
Disciplinary Counsel, and announced ready. Respondent,
KRISTIN D. WILKINSON (hereinafter referred to as
"Respondent'), Texas Bar Number 24037708, appeared in
person and announced ready.
Jurisdiction and Venue
On September 1,2016, pursuant to Rule 3 .02 of the
TEXAS RULES Of DISCIPLNARY PROCEDURE, the
SUPREME COURT OF TEXAS appointed the Honorable
Tim Womack to preside over this disciplinary action. The
Court finds that it has jurisdiction over the parties and the

68
App068

subject matter of this action, and that venue is proper.
The Court, having considered all of the pleadings,
evidence, stipulations, argument and Order Granting
Petitioner's Motion for Partial Summary Judgment
entered April 28, 2017, finds Respondent committed
Professional Misconduct as defined by Rule 1.06W of the
TEXAS RULES OF DISCIPUNARY PROCEDURE. The
Court impaneled and swore the jury, which heard the
evidence and arguments of counsel. The court submitted
questions, definitions, and instructions to the jury. In
Judgment of Disbarment
Page 1 of 6

69
App069

response, the jury made findings that the court received,
filed, and entered of record. The questions submitted to
the jury and the jury’s findings are attached as Exhibit "A"
and incorporated by reference. Petitioner moved for
judgment on the verdict. The court considered the motion
and renders judgment for Petitioner.
Professional Misconduct
After considering the verdict of the jury, testimony and
documentary evidence, arguments of counsel, and
applicable law, the Court finds and concludes:
1. Respondent is an attorney licensed to practice law in
Texas and is a member of
the STATE BAR OF TEXAS. Respondent's principal place
of practice is Conroe,
Montgomery County, Texas. Therefore, this Court has
jurisdiction over the
parties and subject matter of this case, and venue is
appropriate in Montgomery
County, Texas;
2. Respondent has committed professional misconduct as
defined by Rule 1.06W of
the TEXAS RULES OF DISCIPLINARY PROCEDURE and
in violation of one or more of the TEXAS DISCIPLINARY
RULES of PROFESSIONAL CONDUCT; Article X, Section
9, of the STATE BAR RULES, and
3. Respondent violated the following TEXAS
DISCIPLINARY RULES OF PROFESSIONAL CONDUCT:
Rules 8.04(a)(2) [a lawyer shall not commit a serious

70
App070

crime or commit any other criminal act that reflects
adversely on the lawyer's honesty, trustworthiness or
fitness as a lawyer in other respects]; 8.04(a)(3) [a lawyer
shall not engage in conduct involving dishonesty, fraud,
deceit or misrepresentation];
and 8.04(a)(7) [a lawyer shall not violate any disciplinary
or disability order or
judgment].
Sanction
The Court, having found that Respondent has committed
Professional Misconduct, heard and considered additional
evidence regarding the appropriate sanction to be
imposed against Respondent.
After hearing evidence and argument and after having
considered the factors in Rule 3.10 of the TEXAS RULE
OF DISCTPLINARY PROCEDURE) the Court finds that
the appropriate sanction is DISBARMENT.
Judgment of Disbarment
Page 2 of 6

71
App071

Disbarment
It is therefore ORDERED, ADJUDGED and DECREED that
effective immediately)
Respondent, KRISTIN D. WILKINSON, State Bar Number
24037708, is hereby DISBARRED from the practice of law
in the State of Texas.
It is further ORDERED Respondent is prohibited from
practicing law in Texas, holding herself out as an attorney
at law) performing any legal services for others, accepting
any fee directly or indirectly for legal services, appearing
as counselor in any representative capacity in any
proceeding in any Texas court or before any
administrative body or holding herself out to others or
using her name, in any manner, in conjunction with the
words "attorney at law," «attorney,"
((counselor at law," or "lawyer."
Notification
It is further ORDERED Respondent shall immediately
notify each of her current clients in writing of this
disbarment. In addition to such notification, Respondent
is ORDERED to return any files, papers, unearned monies
and other property belonging to clients and former clients
in the Respondent's possession to the respective clients or
fanner clients or to another attorney at the client's or
former client's request.
Respondent is further ORDERED to file with the STATE
BAR OF
TEXAS, Chief Disciplinary Counsel, P.O. Box 12487,

72
App072

Austin, Texas 78711-2487 (1414 Colorado St., Austin,
Texas 78701), within thirty (30) days of the signing of this
Judgment, an affidavit stating that all current clients have
been notified of Respondent's disbarment and that all
files, papers, monies and other property belonging to all
clients and former clients have been returned as ordered
herein.
It is further ORDERED Respondent shall, on or before
thirty (30) days from the signing of this Judgment, notify
in writing each and every justice of the peace, judge,
magistrate, administrative judge or officer and chief
justice of each and every court or tribunal in which
Respondent has any
Judgment of Disbarment
Page 3 of6

73
App073

matter pending of the terms of this Judgment, the style
and cause number of the pending matter(s), and the
name, address and telephone number of the client(s)
Respondent is representing.
Respondent is further ORDERED to file with the STATE
BAR OFTEXAS, Chief Disciplinary Counsel, P.O. Box
12487, Austin, Texas 78711-2487 (1414 Colorado St.,
Austin, Texas 78701), within thirty (30) days of the
signing of this Judgment, an affidavit stating that each
and every justice of the peace, judge, magistrate,
administrative judge or officer and chief justice has
received written notice of the
terms of this judgment.
Surrender of License
It is further ORDERED Respondent shall, within thirty
(30) days of the signing of this
Judgment, surrender her law license and permanent State
Bar Card to the STATE BAR OF TEXAS, Chief
Disciplinary Counsel, P.O. Box 12487, Austin— Texas
78711-2487 (1414 Colorado St., Austin, Texas 78701 ), to
be forwarded to the Supreme Court of the State of Texas.
Attorneys' Fees and Expenses
It is further ORDERED Respondent shall pay all
reasonable and necessary attorneys' fees and direct
expenses to the STATE BAR OF TEXAS in the amount of
Twenty-Five Thousand One Hundred Seventy and 08/1 00
Dollars ($25,170.08). The payment shall be made by
certified or cashier's check or money order. Respondent

74
App074

shall forward the funds, made payable to the STATE B AR
OF TEXAS, to the STATE BAR OF TEXAS, Chief
Disciplinary Counsel, P.O. Box 12487, Austin, Texas
78711-2487 (1414 Colorado St., Austin, Texas 78701).
It is further ORDERED that all amounts ordered herein
are due to the misconduct of
Respondent and are assessed as a part of the sanction in
accordance with Rule 1.06Z of the TEXAS RULES OF
DISCIPLINARY PROCEDURE. Any amount not paid shall
accrue interest at the maximum
Judgment of Disbarment
Pa~c4of6

75
App075

legal rate per annum until paid and the STATE BAR OF
TEXAS shall have all writs and other post-judgment
remedies against Respondent in order to collect all
unpaid amounts.
Publication
It is further ORDERED this disbarment shall be made a
matter of record and appropriately published in
accordance with the TEXAS RULES OF DISCIPUNARY
PROCEDURE.
Conditions Precedent to Reinstatement
It is further ORDERED that payment of the foregoing
restitution and attorneys' fees and expenses amounts
shall be a condition precedent to any consideration of
reinstatement from disbarment as provided by Rules 2.19
and 11.02(D) of the TEXAS RULES OF DISCIPLINARY
PROCEDURE.
Other Relief
IT IS FURTHER ORDERED that the Clerk of this Court
shall forward a certified copy of the current Disciplinary
Petition on file in this case, along with a copy of this
Judgment to the following (1) CLERK OF THE SUPREME
COURT OF TEXAS, Supreme Court Building, Austin,
Texas 787 J 1; (2) the STATE BAR Or-TEXAS, Office of
the Chief Disciplinary Counsel, P.O. Box 12487, Austin,
Texas 78711-2487; and (3) Respondent, P.O . Box 701188,
Houston, Texas 77270-1188.
IT IS ORDERED that all costs of court incurred in the

76
App076

prosecution of this lawsuit shall be taxed against
Respondent, for which the Clerk may have execution
ifthey are not timely paid.
Judgment of Disbarment
Page 5 of6

77
App077

All requested relief not expressly ranted herein is
expressly DENIED.
SIGNED this 14th day of August 2017.
Judgment of Disbarment
Page 6 of6

78
App078

JUL 20,2017
CAUSE NO. 16-09-10238
COMMISSION FOR LAWYER DISCIPLINE,
Petitioner,
§
§
§

IN THE DISTRICT COURT OF
vs. § MONTGOMERY COUNTY, TEXAS
KRISTIN D. WILKINSON, §
Respondent. § 2841h JUDICIAL DISTRICT

COURT'S CHARGE TO THE JURY
LADIES AND GENTLEMEN OF THE JUR Y:
After the closing arguments, you will go to the jury room
to decide the case, answer the questions that are
attached, and reach a verdict. You may discuss the case
with other jurors only when you are all together in the
jury room.
Remember my previous instructions: Do not discuss the
case with anyone else, either in person or by any other
means. Do not do any independent investigation about the
case or conduct any research. Do not look up any words in
dictionaries or on the Internet. Do not post information
about the case on the Internet. Do not share any special
knowledge or experiences with the other jurors. Do not
use your phone or any other electronic device during your
deliberations for any reason. I will give you a number

79
App079

where others may contact you in case of an emergency.

Any notes you have taken are for your own personal use.
You may take your notes back into the jury room and
consult them during deliberations, but do not show or
read your notes to your fellow jurors during your
deliberations. Your notes are not evidence. Each of you
should rely on your independent recollection of the
evidence and not be influenced by the fact that another
juror has or has not taken notes.
Court's Charge to the Jury Page 1
EXHIBIT
fA

80
App080

You must leave your notes with the bailiff when you are
not deliberating. The bailiff will give your notes to me
promptly after collecting them from you. I will make sure
that your notes are kept in a safe, secure location and not
disclosed to anyone. After you complete your
deliberations, the bailiff will collect your notes. When you
are released from jury duty, the bailiff will promptly
destroy your notes so that nobody can rend what you
wrote.
Here are the instructions for answering the questions.
1. Do not let bias, prejudice, or sympathy play any part in
your decision.
2. Base your answers only on the evidence admitted in
court and on the law that is in
these instructions and questions. Do not consider or
discuss any evidence that was
not admitted in the courtroom.
3. You are to make up your own minds about the facts.
You are the sale judges of the
credibility of the witnesses and the weight to give their
testimony. But on matters of
law, you must follow all of my instructions.
4. If my instructions use a word in a way that is different
from its ordinary meaning, use the meaning I give you,
which will be a proper legal definition.
5. All the questions and answers are important. No one
should say that any question or answer is not important.
6. Answer "yes" or "no” to all questions unless you are told
otherwise. A "yes" answer
must be based on a preponderance of the evidence.
Whenever a question requires an

81
App081

/

answer other than “yes" or "no,” your answer must be
based on a preponderance of the
evidence. The term “preponderance of the evidence"
means the greater weight of credible evidence presented
in this case. If you do not find that a preponderance of the
evidence supports 8 "yes'! answer, then answer "no." A
preponderance of the evidence is not measured by the
number of witnesses or by the number of documents
admitted in evidence. For a fact to be proved by 0.
preponderance of the evidence, you must find that the fact
is more likely true than not true.
7. Do not decide who you think should win before you
answer the questions and then
just answer the questions to match your decision. Answer
each question carefully
without considering who will win. Do not discuss or
consider the effect your answers
will have.
Court's Charge to the Jury Page 2

82
App082

8, Do not answer questions by drawing straws or by any
method of chance.
9, Some questions might ask you for a dollar amount. Do
not agree in advance to decide on a dollar amount by
adding up each juror's amount and then figuring the
average.
10. Do not trade your answers. For example, do not say, “I
will answer this question your way if you answer another
question my way,”
11. The answers to the questions must be based on the
decision of at least 10 of the 12
jurors. The same 10 jurors must agree on every answer.
Do not agree to be bound by
a vote of anything less than 10 jurors, even if it would be a
majority,
As I have said before, if you do not follow these
instructions, you will be guilty of jury
misconduct, and I might have to order a new trial and
start this process over again. This would waste your time
and the parties' money, and would require the taxpayers
of this county to pay for another trial. If a juror breaks
any of these rules, tell that person to stop and report it to
me immediately_
DEFINITIONS AND INSTRUCT[ONS
A fact may be established by direct evidence or by
circumstantial evidence or both. A fact is established by
direct evidence when proved by documentary evidence or
by witnesses who saw the act done or heard the words
spoken. A fact is established by circumstantial evidence

83
App083

when it may be fairly and reasonably inferred from other
facts proved.
A trustee must administer the trust solely in the interest
of the beneficiary.
The trustee must administer the trust as a prudent person
would, in light of the purposes, terms, and other
circumstances of the trust.
A trustee must take all reasonable steps to secure
possession of, and maintain control over, the trust
property, and use the level of care and skill a person of
ordinary prudence would use to preserve trust property.
This duty applies not only to tangible property, but also to
other rights of the trust estate. For example, a trustee
must take reasonable actions to collect claims due to the
trust
Court's Charge to the Jury Page 3

84
App084

estate.
Although a trustee may deposit trust funds in a bank or
other financial institution, the trustee must use
reasonable care in selecting the institution and must
designate all such deposits as trust deposits. The trustee
may not subject the property to unreasonable restrictions
on withdrawal or leave it in non-interest bearing accounts
for unduly long periods of time. Pending investment,
distribution, or payment of debts, 8 trustee is authorized
to deposit trust funds in a bank that is subject to
supervision by state or federal authorities.
A trustee shall invest and manage the trust assets solei y
in the interest 0 f the beneficiaries.
A beneficiary by written demand may request (he trustee
to deliver to each beneficiary of the trust a written
statement of accounts covering all transactions since the
last accounting or since the creation of the trust,
whichever is later. If the trustee fails or refuses to deliver
the statement on or before the 90th day after the date the
trustee receives the demand or after a longer period
ordered by n court, any beneficiary of the trust may file
suit to compel the trustee to deliver the statement to all
beneficiaries of the trust. The court may require the
trustee to deliver a written statement of account to all
beneficiaries on finding that the nature of the
beneficiary's interest in the trust or the effect of the
administration of the trust on the beneficiary's interest is
sufficient to require an accounting by the trustee.
However, the trustee is not obligated or required to
account to the beneficiaries of a trust more frequently

85
App085

than once every 12 months unless 8 more frequent
accounting is required by the
court.
Unless the terms of the trust provide otherwise, the
trustee is entitled to reasonable
compensation from the trust for acting as trustee.
A trustee may discharge or reimburse herself from trust
principal or income or partly from
Court's Charge to the Jury Page 4

86
App086

both for advances made for the convenience, benefit, or
protection of the trust or its property or expenses
incurred while administering Or protecting the trust.
Court's Charge to the Jury Page 5

87
App087

QUESTION NO.l
Did Kristin Wilkinson engage in conduct involving
dishonesty, fraud, deceit or
misrepresentation?
The term "fraud" denotes conduct having a purpose to
deceive and not merely
negligent misrepresentation or failure to apprise another
of relevant information.
The term "misrepresentation” may be defined as one or
both of the following: 1) The
act or an instance of making a false or misleading
assertion about something, usually with the intent to
deceive. The word denotes not just written or spoken
words but also any other conduct that amounts to a false
assertion. 2) The assertion so made; an incorrect, unfair,
or false statement; an assertion that does not accord with
the facts.
Answer “Yes” or "No”
Answer: yes
Court's Charge to the Jury Page 6

88
App088

QUESTION NO.2
Did Kristin Wilkinson commit a criminal act that reflects
adversely on her honesty,
trustworthiness or fitness as a lawyer in other respects?
It is a “criminal act" to intentionally, knowingly, or
recklessly misapply
property held as a fiduciary in a manner that involves
substantial risk of loss to the
owner of the property or to a person for whose benefit the
property is held.
A "fiduciary” includes a trustee, an attorney in fact or
agent appointed under a
durable power of attorney, or any other person acting in a
fiduciary capacity.
A person acts in a "fiduciary capacity” when the business
she transacts, or the
money or property which she handles, is not hers or for
her own benefit, but for the
benefit of another person with whom she was a
relationship implying and
necessitating great confidence and trust and a high
degree of good faith.
A person acts "intentionally" with respect to the nature or
result of her conduct
when it is her conscious objective or desire to engage in
the conduct or cause the
result.
89
App089

A person acts "knowingly" with respect to the nature of or
the circumstances
surrounding her conduct when she is aware of the nature
of her conduct or that the
circumstances exist or that her conduct is reasonably
certain to cause the result.
A person acts "recklessly" with respect to circumstances
surrounding her
conduct or the result of her conduct when she is aware of
but consciously disregards a
substantial and unjustifiable risk that the circumstances
exist or the result will occur.
The risk must be of such n nature und degree that its
disregard constitutes a gross
deviation from this standard of care that an ordinary
person would exercise under all
the circumstances as viewed from the actor's standpoint.
Answer “Yes" or “No."
Answer: _yes
Court's Charge to the Jury Page 7

90
App090

Presiding Juror:
1. When you go into the jury room to answer the
questions, the first thing you will need to do is choose a
presiding juror.
2. The presiding juror has these duties:
a. have the complete charge read aloud if it will be helpful
to your deliberations;
b. preside over your deliberations, meaning manage the
discussions, and see that
you follow these instructions;
c. give written questions or comments to the bailiff who
will give them to the
judge;
d. write down the answers you agree on;
e. get the signatures for the verdict certificate; and
f. notify the bailiff that you have reached a verdict.
Do you understand the duties of the presiding juror? If
you do not, please tell me now.
Instructions for Signing the Verdict Certificate:
1. You may answer the questions on a vote of 10 jurors.
The same 10 jurors must agree on every answer in the
charge. This means you may not have one group of 10
jurors agree on one answer and a different group of 10
jurors agree on another answer.
2. If 10 jurors agree on every answer, those 10 jurors sign
the verdict.
If 11 jurors agree on every answer, those 11 jurors sign
the verdict.
If all 12 of you agree on every answer, you are un8.11imous
and only the presiding juror signs the verdict.
3. All jurors should deliberate on every question. You may

91
App091

end up with all 12 of you
agreeing on some answers, while only 10 or 11 of you
agree on other answers. But
when you sign the verdict, only those 10 or 11 of you who
agree on every answer will
sign the verdict.
Do you understand these instructions? If you do not,
please tell me now.
/S/ Honorable Tim Womack
Specially Assigned Judge
Court's Charge to the Jury Page 8

92
App092

VERDICT CERTIFICATE
Check one:
___Our verdict 15 unanimous. All 12 of us have agreed to
each and every answer. The presiding juror has signed
the certificate for all 12 of us.
Signature of Presiding Juror Printed Name of Presiding
Juror
_XX_ Our verdict is not unanimous. Eleven of us have
agreed to each and every answer and have signed the
certificate below.
___Our verdict is not unanimous. Ten of us have agreed
to each and every answer and have signed the certificate
below.
Signature: Name Printed:
[ELEVEN OF TWELVE SIGNATURES APPEAR HERE]
Court's Charge to the Jury Page 9

93
App093

APPENDIX C

l\

\

94
App094

RE: Case No. 19-0797 DATE: 10/25/2019
FILE COPY
COA#: 09-17-00444-CV TC#: 16-09-10238-CV
STYLE: WILKINSON v. CLD
Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.
MS. KRISTIN DIANE WILKINSON
THE WILKINSON LAW FIRM
P.O. BOX 701188
HOUSTON, TX 77270
* DELIVERED VIA E-MAIL *

95
App095

APPENDIX D

96
App096

“Misapply” means to deal with property contrary to an
agreement under which the fiduciary holds the property;
or a law prescribing the custody or disposition of the
property.
Tex. Penal Code § 32.45(a)(2)
Sec. 81.071. DISCIPLINARY JURISDICTION.
Each attorney admitted to practice in this state and each
attorney specially admitted by a court of this state for a
particular proceeding is subject to the disciplinary and
disability jurisdiction of the supreme court and the
Commission for Lawyer Discipline, a committee of the
state bar.
Added by Acts 1987, 70th Leg., ch. 148, Sec. 3.01, eff. Sept.
1,1987. Amended by Acts 1991, 72nd Leg., ch. 795, Sec.
19, eff. Sept. 1,1991.
Sec. 81.101. DEFINITION, (a) In this chapter the
"practice of law" means the preparation of a pleading or
other document incident to an action or special
proceeding or the management of the action or
proceeding on behalf of a client before a judge in court as
well as a service rendered out of court, including the
giving of advice or the rendering of any service requiring
the use of legal skill or knowledge, such as preparing a
will, contract, or other instrument, the legal effect of
which under the facts and conclusions involved must be
carefully determined.
(b) The definition in this section is not exclusive
and does not deprive the judicial branch of the power and

97
App097

authority under both this chapter and the adjudicated
cases to determine whether other services and acts not
enumerated may constitute the practice of law.
(c) In this chapter, the "practice of law" does not
include the design, creation, publication, distribution,
display, or sale, including publication, distribution,
display, or sale by means of an Internet web site, of
written materials, books, forms, computer software, or
similar products if the products clearly and conspicuously
state that the products are not a substitute for the advice
of an attorney. This subsection does not authorize the
use of the products or similar media in violation of
Chapter 83 and does not affect the applicability or
enforceability of that chapter.
Added by Acts 1987, 70th Leg., ch. 148, Sec. 3.01, eff. Sept.
1,1987. Amended by Acts 1999, 76th Leg., ch. 799, Sec. 1,
eff. June 18,1999.
Rule 2.23. Probated Suspension-Revocation Procedure If
all or any part of a suspension from the practice of law is
probated under this Part II, the Board of Disciplinary
Appeals is hereby granted jurisdiction for the full term of
suspension, including any probationary period, to hear a
motion to revoke probation.......
Texas Rules of Disciplinary Procedure, V. T. C. A., Govt.
Code T. 2, Subt. G App. A-l, Disc. Proc., T. 2, Subt. G, Refs
& Annos, TX ST RULES DISC P T. 2, Subt. G, Refs &
Anno. Current with amendments received through May 31,
2018. Applicable only to matters filed prior to June 1,
2018.

98
App098

Sec. 81.071 Disciplinary Jurisdiction.
SUBCHAPTER E. DISCIPLINE
Sec. 81.071. DISCIPLINARY JURISDICTION. Each
attorney admitted to practice in this state and each
attorney specially admitted by a court of this state for a
particular proceeding issubject to the disciplinary and
disability jurisdiction of the supreme court and the
Commission for Lawyer Discipline, a committee of the
state bar.
Added by Acts 1987, 70th Leg., ch. 148, Sec. 3.01, eff. Sept.
1,1987. Amended by Acts 1991,
72nd Leg., ch. 795, Sec. 19, eff. Sept. 1,1991.

99
App099

Sec. 81.101 Definition.

SUBCHAPTER G. UNAUTHORIZED PRACTICE OF LAW
Sec. 81.101. DEFINITION, (a) In this chapter the "practice
of law" means the preparation of a pleading or other
document incident to an action or special proceeding or
the management of the action or proceeding on behalf of a
client before a judge in court as well as a service rendered
out of court, including the giving of advice or the
rendering of any service requiring the use of legal skill or
nowledge, such as preparing a will, contract, or other
instrument, the legal effect of which under the facts and
conclusions involved must be carefully determined.
(b) The definition in this section is not exclusive and does
not deprive the judicial branch of the power and authority
under both this chapter and the adjudicated cases to
determine whether other services and acts not
enumerated may constitute the practice of law.
(c) In this chapter, the "practice of law1' does not include
the design, creation, publication, distribution, display, or
sale, including publication, distribution, display, or sale by
means of an Internet web site, of written materials, books,
forms, computer software, or similar products if the
products clearly and conspicuously state that the
products are not a substitute for the advice of an attorney.
This subsection does not authorize the use of the products
or similar media in violation of Chapter 83 and does not
affect the applicability or enforceability of that chapter.
Added by Acts 1987, 70th Leg., ch. 148, Sec. 3.01, eff. Sept.
1,1987. Amended by Acts 1999,
76th Leg., ch. 799, Sec. 1, eff. June 18,1999.

100
ApplOO

2.23 Probated Suspension - Revocation Procedure: If all or
any part of a suspension from the practice of law is
probated under this Part II, the Board of Disciplinary
Appeals is hereby granted jurisdiction for the full term of
suspension, including any probationary period, to hear a
motion to revoke probation. If the Chief Disciplinary
Counsel files a motion to revoke probation, it shall be set
for hearing within thirty days of service of the motion
upon the Respondent. Service upon the Respondent shall
be sufficient if made in accordance with Rule 21a of the
Texas Rules of Civil Procedure. Upon proof, by a
preponderance of the evidence * of a violation of probation,
the same shall be revoked and the attorney suspended
from the practice of law for the full term of suspension
without credit for any probationary time served. The
Board of Disciplinary Appeals’Order revoking a probated
suspension cannot be superseded or stayed.

101
ApplOl

102
Appl02

Rule 8.04 Misconduct
(а) A lawyer shall not:
(1) violate these rules, knowingly assist or induce another
to do so, or do so through the acts of another, whether or
not such violation occurred in the course of a
client-lawyer relationship;
(2) commit a serious crime or commit any other criminal
act that reflects adversely on the lawyers honesty,
trustworthiness or fitness as a lawyer in other respects;
(3) engage in conduct involving dishonesty, fraud, deceit
or misrepresentation;
(4) engage in conduct constituting obstruction of justice;
(5) state or imply an ability to influence improperly a
government agency or official;
(б) knowingly assist a judge or judicial officer in conduct
that is a violation of applicable rules of judicial conduct or
other law;
(7) violate any disciplinary or disability order or
judgment;

103
Appl03

